            i


            -.
          -. .
           *%\*
                     CLOSEOUT OF M-91090036
Two letters,-dated a r i l 29 and June 5. 1992. from Dr. James
                                                       -   - -----
                                                                J. ---


Zwolenik t      o         -       \ will serve as the closeout tor
this case.



                                        June 5, 1992--CloseoutDate
                      NATIONAL SCIENCE FOUNDATION
                             1800 G STREET. N.W
                            WASHINGTON. D.C. 20550




        OHICE O
              F
   INSPECTORGENERAL
                                 JUN    .5 1%


Personal and Confidential                                CERTIFIED MAIL




Dear Dr. :-                                                               1
This is to acknowledge receipt of your letter of May 5, 1992, and
the enclosures thereto.
In the materials you have sent us to date, we could find no factual
evidence connecting your allegation of retaliation for reporting
alleged misconduct at the                         during the 1960's
and the proposing, conducying or reporting or research under any
specific-NSF award. Thus, we lack jurisdiction in this matter and
must now consider this matter closed.

                                          Sincerely yours,




                                          James J. Zwolenik, Ph.D.
                                          Assistant Inspector General
                                            for Oversight

cc:
      I
                      NATIONAL SCIENCE FOUNDATION
                              1800 G STREET. N.W.
                            WASHINGTON, D.C. 205'50




       OFFICE Of
  INSPECTOR GENERAL
                                 APR   , 29 1992



Personal and Confidential                             CERTIFIED MAIL




Please be advised that the Counsel to the NSF Inspector General
determined that I do not have a conflict of interest in the matters
         brought to us. This is in response to your letter of
        , 1992, and all related correspondence you have submitted
                  Science Foundation (NSF), Office of Inspector
General (OIG) since August 1991.
We have carefully reviewed the extensive correspondence and
documents you sent us. Our understanding of your allegation is
that
-    vou have been the victim of retaliation for reporting, along
     A

with others, the                         aterials, equipment, and
facilities at the                         during the 1960's. You
state that this                            to the present time in
the form o f professional blacklisting by the 4
          NSF, and other segments of the scientific community.
The NSF definition of misconduct in science and engineering does
include retaliation against good faith whistleblowers. However,
our jurisdiction with regard to retaliation is limited to
misconduct that "has occurred in proposing, carrying out, or
reporting results from activities funded by NSF."
In the materials you sent us, we could find no factual evidence
m
connecting your allegations o f misconduct at the
         during the 1 9 6 0 ' s to the conduct of
specific NSF award. The fact that you may have had an NSF grant at
the time you alleged misuse of state resources does not give us
jurisdiction in a matter unrelated to an NSF award.
    Further, the materials you sent us do not provide any factual
    evidence to support your allegation that NSF has retaliated against
    you for certain alleqations you made aqainst various officials of

    Unless we receive new, specific information within fifteen days, we
    shall consider (1) that your allegation of retaliation by the
                              falls outside the jurisdiction of NSF
                             45 C.F.R. Part 689, and (2) that your
    allegation of- retaliation by NSF lacks substance.         1n both
    instances we shall consider these matters closed.

?
                                       Sincerely yours,




                                       James J. Zwolenik, Ph.D.
                                       Assistant Inspector General
                                         for Oversight
